Audit Report




OIG-14-048
TERRORIST FINANCING/MONEY LAUNDERING: FinCEN
Completed the BSA IT Modernization Program Within Budget and
Schedule
September 17, 2014




Office of
Inspector General
Department of the Treasury
This Page Intentionally Left Blank.
Contents

Audit Report

  Audit Results..............................................................................................    3

      BSA IT Mod Program Development Was Completed within Budget and on
      Schedule ...............................................................................................   3

          BSA IT Mod Completed within Budgeted Costs .....................................                       3
          BSA IT Mod Program Development Finished on Schedule .......................                            4
          BSA IT Mod Transitioned to Operations and Maintenance .......................                          5
          Financial Intelligence Repository Is Operational But
            Needs Enhancements ......................................................................            6
          BSA IT Mod Is Meeting External User Needs .........................................                    7
          FinCEN and Treasury OCIO Oversight Continued ...................................                       8
          Status of Prior BSA IT Mod Issues .......................................................              9

  Conclusion ................................................................................................. 10

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................                 11
  Appendix     2:      Additional Background Information on BSA IT Mod ..................                        14
  Appendix     3:      Management Response .........................................................             21
  Appendix     4:      Major Contributors to this Report ...........................................             22
  Appendix     5:      Report Distribution ...............................................................       23

Abbreviations

  BSA                  Bank Secrecy Act
  BSA IT Mod           BSA Information Technology Modernization Program
  FinCEN               Financial Crimes Enforcement Network
  FIR                  Financial Intelligence Repository
  IRS                  Internal Revenue Service
  IT                   Information Technology
  MITRE                MITRE Corporation
  OCIO                 Office of the Chief Information Officer
  OIG                  Office of Inspector General
  TEOAF                Treasury Executive Office for Asset Forfeiture



                       FinCEN Completed the BSA IT Modernization Program Within                              Page i
                       Budget and Schedule (OIG-14-048)
    This Page Intentionally Left Blank.




FinCEN Completed the BSA IT Modernization Program Within   Page ii
Budget and Schedule (OIG-14-048)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                        September 17, 2014

                        Jennifer Shasky Calvery, Director
                        Financial Crimes Enforcement Network

                        In 2011, Congress directed our office to report on the
                        planning and implementation of the Bank Secrecy Act (BSA)
                        Information Technology Modernization (BSA IT Mod) by the
                        Financial Crimes Enforcement Network (FinCEN). Since that
                        time, as directed, we have provided semi-annual reports on
                        the progress of this 4-year, $120 million effort to modernize
                        the collection and analysis of BSA data to support Federal,
                        state, and local agencies engaged in identifying money
                        laundering, terrorist financing, tax evasion, and
                        vulnerabilities in the financial industry. 1 This report is the
                        sixth and final report on FinCEN’s design and implementation
                        of BSA IT Mod. 2

                        Consistent with the Congressional directive, the objectives
                        of the audit were to determine if FinCEN was (1) meeting
                        cost, schedule, and performance benchmarks for the
                        program and (2) providing appropriate oversight of
                        contractors. We also assessed any deviations from FinCEN’s
                        plan. The period covered by this audit was January through
                        June 2014. We interviewed FinCEN program officials, the


1
    House Report (H. Rept.) 112-331 directed our office to report on BSA IT Mod, including
    contractor oversight and progress regarding budget and schedule, semiannually.
2
    Our prior five reports issued under the Congressional directive are: FinCEN’s BSA IT
    Modernization Program Is on Schedule and Within Cost But Requires Continued Attention to
    Ensure Successful Completion (OIG-12-047; Mar. 26, 2012); FinCEN’s BSA IT Modernization
    Program Is Meeting Milestones, But Oversight Remains Crucial (OIG-12-077; Sep. 27, 2012);
    FinCEN’s BSA IT Modernization Program Met Milestones with Schedule Extensions
    (OIG-13-036; Mar. 28, 2013); FinCEN’s BSA IT Modernization Program Was within Budget
    and on Schedule But Users Suggest Enhancements (OIG-13-053; Sep. 25, 2013); and
    FinCEN’s BSA IT Modernization Program is on Budget, on Schedule and Close to Completion
    (OIG-14-029; Mar. 25, 2014).



                        FinCEN Completed the BSA IT Modernization Program Within                Page 1
                        Budget and Schedule (OIG-14-048)
                          Department of the Treasury‘s (Treasury) Office of Chief
                          Information Officer (OCIO) officials, and BSA IT Mod system
                          users from various components within the Department of
                          Justice. We interviewed representatives from Deloitte
                          Consulting, LLP (Deloitte), and MITRE Corporation (MITRE),
                          the contractors involved with developing the program. 3
                          Additionally, we interviewed the contractors who support
                          the program’s operations and maintenance. We also
                          reviewed applicable program documentation. We performed
                          our fieldwork from April 2014 through July 2014. Appendix
                          1 provides a more detailed description of our audit
                          objectives, scope, and methodology. Appendix 2 provides
                          additional background information on BSA IT Mod, including
                          its component projects.

                          In brief, we found that FinCEN completed BSA IT Mod
                          development in March 2014, within the $120 million
                          budgeted for the program and within the planned 4-year
                          schedule. During this audit period, FinCEN completed BSA IT
                          Mod’s final milestone project, the second phase of Release 2
                          of the Broker Information Exchange. Additionally, BSA IT
                          Mod transitioned from the development phase to the
                          operation and maintenance phase. Although the development
                          phase was completed, FinCEN is working on certain
                          necessary enhancements to BSA Mod IT.

                          We are making no recommendations in this report. Because
                          BSA IT Mod is critical to both FinCEN’s mission as well as to
                          Federal, state, and local stakeholders, as part of the Office
                          of Inspector General annual planning process, we will
                          continue to monitor FinCEN’s efforts as the program
                          progresses through the operations and maintenance phase.




3
    FinCEN contracted with Deloitte to oversee the systems development and integration effort.
    Deloitte was the prime contractor in the BSA IT Mod effort. FinCEN also engaged MITRE as a
    subject matter expert on program and project management and BSA IT Mod business
    capabilities. MITRE is a not-for-profit organization chartered to work in the public interest with
    expertise in systems engineering, information technology, operational concepts, and enterprise
    modernization. See appendix 2 for additional detail about FinCEN’s BSA IT Mod contracts.



                          FinCEN Completed the BSA IT Modernization Program Within                       Page 2
                          Budget and Schedule (OIG-14-048)
                        In its management response, which is provided in
                        appendix 3, FinCEN acknowledged our conclusion that the
                        BSA IT Mod program was completed within budget and on
                        schedule. FinCEN also stated it will continue to engage its
                        stakeholders to gather feedback, prioritize efforts, and
                        address user needs throughout the operations and
                        maintenance phase.

Audit Results

                        BSA IT Mod Program Development Was Completed
                        within Budget and on Schedule

                        BSA IT Mod Completed within Budgeted Costs

                        FinCEN completed the final milestone project in March 2014
                        and spent $111.3 million developing BSA IT Mod from its
                        overall $120 million, 4-year planned budget. 4 A breakdown
                        by category of the costs incurred during the 4-year
                        development is provided below.

                         Table 1: BSA IT Mod Development Costs at Completion (in millions)
                         Category                                                                          Amount
                            Hardware and Software                                                           $12.0
                            Contractor Services                                                              46.4
                            Other1                                                                           15.9
                            Operations and Maintenance                                                       37.0
                           Total                                                                           $111.3
                         Source: OIG analysis of FinCEN data.
                         1
                             Other costs are comprised of (1) program management and program engineering
                             performed by contractors including Deloitte and MITRE and (2) a 4 percent fee by the
                             Department of the Interior’s National Business Center Acquisition Services Directorate
                             for contract support.


                        FinCEN funded BSA IT Mod development through its annual
                        Congressional appropriations and supplemental funding from
                        the Treasury Forfeiture Fund administered by the Treasury


4
    Prior to the Office of Management and Budget’s approval of the $120 million development
    budget for BSA IT Mod, FinCEN spent $11.2 million in planning. Additionally, FinCEN
    estimated that $6.6 million was incurred in staffing costs related to the program during the 4-
    year development of the program. These costs are not reflected in Table 1.



                        FinCEN Completed the BSA IT Modernization Program Within                                      Page 3
                        Budget and Schedule (OIG-14-048)
                        Executive Office for Asset Forfeiture (TEOAF). 5 Appendix 2
                        provides detail on funding source by year.

                        BSA IT Mod Program Development Finished on Schedule

                        FinCEN completed all BSA IT Mod project milestones for
                        building the foundation for modernized BSA data collection,
                        storage, sharing, and analysis. During the audit period,
                        FinCEN completed the final milestone project — the second
                        phase of Release 2 of the Broker Information Exchange.
                        Appendix 2 provides the status of BSA IT Mod by project.

                        FinCEN, contractors, and OCIO officials told us that BSA IT
                        Mod was successfully developed, that it met its originally
                        planned functionality, and that it was performing well
                        without any significant issues. Additionally, there have been
                        no reductions in the program’s scope or deferments of
                        critical functionality.

                        During the audit period, FinCEN conducted performance
                        testing through government acceptance testing. 6 FinCEN
                        tested the final milestone project, the second phase of
                        Release 2 of the Broker Information Exchange, as well as all
                        system changes and releases done as part of operations and
                        maintenance. FinCEN considered all remaining open defects
                        manageable and of low severity, meaning that the defects


5
    TEOAF provided funding for BSA IT Mod consistent with its authority to provide funds for
    law enforcement-related expenditures. The Treasury Forfeiture Fund, which is the receipt
    account for the deposit of non-tax forfeitures resulting from law enforcement actions by
    participating Treasury and Department of Homeland Security agencies. The Treasury
    Forfeiture Fund was established under 31 U.S.C. § 9703. The Fund can provide money to
    other Federal entities to accomplish specific objectives for which the recipient entities are
    authorized to spend money and toward other authorized expenses. Distributions from the
    Fund in excess of $500,000 cannot be used until the Appropriations Committees from both
    houses of Congress are notified. TEOAF submits its planned release of funds to Congress
    annually. Those submissions through fiscal year 2012 included the funding provided for the
    BSA IT Mod program.
6
    Government acceptance testing is the Government’s opportunity to validate that the users’
    requirements were met. This includes testing functionality, system usability, permissions and
    security, compatibility testing, and traceability to business requirements through test script
    execution, demonstrations, and inspections. Performance and response time are also
    observed.



                        FinCEN Completed the BSA IT Modernization Program Within                     Page 4
                        Budget and Schedule (OIG-14-048)
                        would not significantly impair program performance or
                        functionality. FinCEN planned to continue to address
                        remaining open defects as part of its ongoing production
                        releases and system upgrades during the operations and
                        maintenance phase. 7

                        During the audit period, FinCEN’s operations and
                        maintenance activities were primarily focused on upgrading
                        BSA IT Mod’s software applications and hardware rather
                        than addressing defects and users’ requests for change and
                        enhancements. These activities included upgrades to FinCEN
                        Query’s search engine software and hardware upgrades to E-
                        filing servers to handle anticipated electronic filing increases.
                        FinCEN also worked to improve BSA IT Mod testing
                        environments. 8 FinCEN program officials told us that the
                        decision to focus principally on hardware and software
                        upgrades was planned to allow the new operations and
                        maintenance contractor, Northrop Grumman, time to become
                        more familiar with BSA IT Mod’s programing before
                        addressing defects or users’ requests for change and
                        enhancements.

                        BSA IT Mod Transitioned to Operations and Maintenance

                        With the completion of the final milestone project, BSA IT
                        Mod transitioned from the development phase to the
                        operations and maintenance phase. FinCEN will fund the
                        operations and maintenance each year through its annual
                        Congressional appropriations. FinCEN’s fiscal year 2014
                        budget included $25.7 million to fund BSA IT Mod’s
                        remaining development project and operations and




7
    FinCEN logs and prioritizes all defects, requests for change and enhancements, as well as
    necessary fixes to repair system functionality. As of June 30, 2014, FinCEN had 194
    requests for change and enhancements and 313 open defects, which FinCEN plans to
    address in operations and maintenance regularly scheduled upgrades.
8
    The testing and system environments should be mirror images of each other so that the
    effects of a programing change can be observed first, in the test environment, without
    impacting users operating in the system environment.



                        FinCEN Completed the BSA IT Modernization Program Within                Page 5
                        Budget and Schedule (OIG-14-048)
                         maintenance. For fiscal year 2015, FinCEN anticipates $27.6
                         million will be needed to fund operations and maintenance. 9

                         FinCEN’s program management told us that no significant
                         future development work was planned for BSA IT Mod and
                         that the level of funding for operations and maintenance
                         should be sufficient to address remaining open defects as
                         well as make minor enhancements and address requests for
                         change. The estimated service life of BSA IT Mod was 10
                         years; however, with the program’s foundation now in place,
                         FinCEN expects the investment’s lifecycle to last beyond 10
                         years.

                         Financial Intelligence Repository Is Operational But Needs
                         Enhancements

                         FinCEN converted investigative and enforcement cases from
                         their existing case management system to the Financial
                         Intelligence Repository (FIR) as part of the Broker Information
                         Exchange project. 10 However, FinCEN continued using an
                         existing system, FinDB, for “314a” cases because FIR could
                         not interact with the Secure Information Sharing System. 11
                         FinCEN plans to resolve this as part of an operations and
                         maintenance effort scheduled for October 2014. According
                         to FinCEN, MITRE, and Deloitte officials, the Broker
                         Information Exchange project’s original plan included building
                         the foundation and establishing core functionality for case
                         creation and storage, and that this core functionality was
                         successfully accomplished.

                         During the audit period, FIR also experienced performance
                         issues with its responsiveness, including inability to open

9
     These dollar amounts for fiscal years 2014 and 2015 include FTE costs.
10
     Appendix 2 has more detail on the Broker Information Exchange project including a listing of
     the case types converted.
11
     “314a” refers to section 314a of the USA PATRIOT Act. This section of the act provides
     authority for law enforcement agencies to submit requests through FinCEN to financial
     institutions for information about financial accounts and transactions of persons or
     businesses that may be involved in terrorism or money laundering. FinCEN’s Secure
     Information Sharing System, which is separate from BSA IT Mod, allows financial institutions
     to receive and transmit information on 314a requests.



                         FinCEN Completed the BSA IT Modernization Program Within                   Page 6
                         Budget and Schedule (OIG-14-048)
                         documents and interface with FinCEN Query. 12 FinCEN
                         officials told us that they considered these performance
                         issues to be serious and that the issues were addressed
                         outside of the normal release schedule. FinCEN officials also
                         told us that they planned to resolve the remaining FIR
                         performance issues and address users’ requests for change
                         in future operations and maintenance releases. Additionally,
                         FinCEN did not complete all work to update the FIR test
                         environment; FinCEN officials said that this matter would be
                         resolved in the next release of FIR scheduled for the end of
                         September 2014.

                         BSA IT Mod Is Meeting External User Needs

                         As of June 30, 2014, approximately 11,000 users had
                         performed approximately 7.2 million data queries since
                         FinCEN Query went live in September 2012. FinCEN
                         program officials told us that they had not heard of any
                         significant user complaints or issues. We found most calls to
                         the FinCEN Helpdesk were non-performance related, such as
                         password and login resets, or instructions on how to
                         complete E-filing forms.

                         In a previous report, we discussed the feedback we received
                         from external users of FinCEN Query on their experience
                         with the tool; that feedback was generally positive. We also
                         noted in the report that we had not yet obtained feedback
                         from DOJ users. During this audit period, we interviewed a
                         number of DOJ users; as a whole, they were also positive
                         about FinCEN Query and told us that it was meeting their
                         business needs. Overall, they said that the system performed
                         well, was responsive, and that the quality of the data was
                         satisfactory.




12
     FinCEN Query is a tool designed to improve authorized users’ ability to access and analyze
     BSA data. The tool supports traditional structured BSA data queries, and provides narrative
     search capabilities and options to coordinate and collaborate with users on queries
     performed.



                         FinCEN Completed the BSA IT Modernization Program Within                  Page 7
                         Budget and Schedule (OIG-14-048)
FinCEN and Treasury OCIO Oversight Continued

During the audit period, FinCEN maintained the same level of
oversight over the contractors as in our previous audit.
FinCEN program officials told us that the transition of the
operations and maintenance contract from Deloitte to
Northrup Grumman had gone well, as did the infrastructure
contract transition from Deloitte to NavStar.

MITRE representatives told us that they believed FinCEN was
successfully managing the program and they had not seen
any adverse effects from MITRE’s reduced involvement in
the program. Additionally, FinCEN, MITRE, and Deloitte
officials told us that they were confident in Northrup
Grumman’s ability to maintain BSA IT Mod in the operations
and maintenance phase.

In our previous audit, we found Treasury OCIO’s monitoring
of the BSA IT Mod program appropriate given the overall
positive track record on this development effort. During this
audit, we found Treasury OCIO continued to monitor
FinCEN’s monthly data submissions and post-implementation
reviews to identify potential issues, and performed macro-
level reviews including trend analysis.

Treasury OCIO officials told us that BSA IT Mod was
performing well and that they knew of no significant
performance issues or user complaints. They were also
satisfied with FinCEN’s management of the program and
believe that FinCEN’s oversight of the program and
contractors had gone well. OCIO officials told us that, as a
whole, BSA IT Mod was successful and attributed the
success to FinCEN’s program management personnel. They
also believed that FinCEN will successfully administer BSA IT
Mod in the operations and maintenance phase.

OCIO plans to continue to monitor the BSA IT Mod program
in the operations and maintenance phase using operational




FinCEN Completed the BSA IT Modernization Program Within        Page 8
Budget and Schedule (OIG-14-048)
                        metrics 13 and by conducting annual operational analyses. 14
                        Treasury OCIO did not know of any additional production
                        capabilities planned for BSA IT Mod at the time of the audit,
                        but told us that any development expected to exceed 90
                        days or $200,000 would require FinCEN to report to OCIO in
                        the same manner as a milestone project.

                        As planned, FinCEN ended external BSA IT Mod governance
                        through the discontinuance of the Modernization Executive
                        Group and Executive Steering Committee in April 2014. 15
                        Treasury OCIO officials said that they had no concerns over
                        this action since the program development was completed.

                        We believe that the oversight by FinCEN management and
                        Treasury OCIO during the audit period was appropriate given
                        the overall positive track record by FinCEN in managing its
                        BSA IT Mod development effort.

                        Status of Prior BSA IT Mod Issues

                        In our last report, we recommended that FinCEN continue to
                        work with users to address users’ requests for training and
                        enhancements. During this audit period, FinCEN continued to
                        work through the Data Management Council (DMC) to
                        address and prioritize user issues, including soliciting
                        feedback on the prioritization of system defects, requests for
                        change, and enhancements; briefing users on the content of
                        operation and maintenance releases and system issues; and
                        providing training and resource information.


13
     Examples of operational metrics captured by FinCEN include the average number of hours
     from receipt of BSA data to availability in FinCEN Query and the percent of customers who
     report overall satisfaction with the use of FinCEN Query.
14
     The Office of Management and Budget (OMB) directs agencies to periodically examine the
     performance of IT investments against, among other things, established cost, schedule, and
     performance goals. Specifically, OMB calls for agencies to perform annual operational
     analyses, which are a key method for examining the performance of such investments.
     Operational analysis will include trend analysis to measure if the system is performing as
     intended in production.
15
     The Treasury CIO was a member of both the BSA IT Mod Modernization Executive Group and
     Executive Steering Committee. These governance bodies met on a quarterly basis or when a
     major decision or approval was sought for BSA IT Mod.



                        FinCEN Completed the BSA IT Modernization Program Within                  Page 9
                        Budget and Schedule (OIG-14-048)
             We also recommended in our last report that FinCEN make
             agencies aware of the process to contact FinCEN if misuse
             of BSA data is suspected. During this audit period, FinCEN
             notified DMC members about the process. FinCEN program
             officials told us that FinCEN continued to develop its own
             program to monitor the use of BSA data. Currently, FinCEN’s
             Liaison Division was working with all BSA IT Mod user
             agencies on establishing Memoranda of Understandings
             addressing the monitoring process that will be used, and
             FinCEN plans to hire a consultant to review its inspection
             program.

Conclusion
             This report is our sixth and final on the status of FinCEN’s
             development of BSA IT Mod. All development milestone
             projects were completed, and the overall program was
             completed within schedule and within budget. Going
             forward, FinCEN will need to address the remaining program
             defects, users' requests for change and enhancements,
             training, and FIR’s functionality. We plan to monitor and
             assess FinCEN’s efforts in these areas in future audits.

                                             ******

             We appreciate the cooperation and courtesies extended to
             our staff during the audit. If you wish to discuss the report,
             you may contact me at (617) 223-8638 or Mark Ossinger,
             Audit Manager, at (617) 223-8643. Major contributors to
             this report are listed in appendix 4.

             /s/
             Sharon Torosian
             Audit Director




             FinCEN Completed the BSA IT Modernization Program Within         Page 10
             Budget and Schedule (OIG-14-048)
Appendix 1
Objectives, Scope, and Methodology




Pursuant to a Congressional directive, this is the sixth and final in a
series of audits of the Financial Crimes Enforcement Network's
(FinCEN) Bank Secrecy Act (BSA) Information Technology
Modernization Program (BSA IT Mod). Our objective was to
determine if FinCEN is (1) meeting cost, schedule, and performance
benchmarks for this program and (2) providing appropriate
oversight of contractors. In addition, we evaluated any deviations
from FinCEN’s plan. We determined the status of the program’s
cost, schedule, and performance through June 30, 2014.

To accomplish our objective, we interviewed officials with FinCEN,
the Department of the Treasury’s Office of the Chief Information
Officer (OCIO), and FinCEN’s contractors. We also interviewed BSA
IT Mod users from various Department of Justice (DOJ) component
agencies. In addition, we reviewed applicable program
documentation. We performed our fieldwork from April 2014
through July 2014.

At FinCEN, we interviewed:

•   The Chief Information Officer (CIO), Chief Technology Officer
    (CTO), and BSA IT Mod Program Manager to obtain an update
    on BSA IT Mod, cost and schedule concerns, project testing
    conducted and defect resolution, strategies employed, and
    overall progress of the program.

•   The BSA IT Mod project managers, project leaders, and
    contracting officer’s representatives to obtain an understanding
    of their perspective, level of involvement, schedule and
    performance concerns, and overall progress of their respective
    projects.

External to FinCEN, we interviewed the following officials:

•   Deloitte Consulting LLP’s Managing Director and Deloitte’s
    Program Manager for BSA IT Mod to obtain an update on their
    perspective of BSA IT Mod and ascertain the program’s status.

•   Northrup Grumman’s on-site Program Manager for BSA IT Mod
    to obtain an update on his perspective of BSA IT Mod and
    ascertain the program’s status.

FinCEN Completed the BSA IT Modernization Program Within        Page 11
Budget and Schedule (OIG-14-048)
                         Appendix 1
                         Objectives, Scope, and Methodology




                         •   NavStar’s Executive Manager and on-site Program Manager for
                             BSA IT Mod to obtain an update on their perspective of BSA IT
                             Mod and ascertain the program’s status.

                         •   Total Systems Technologies Corporation Director for BSA IT
                             Mod to obtain an update on her perspective of BSA IT Mod and
                             ascertain the program’s status.

                         •   MITRE representatives to obtain an update of MITRE’s role as
                             the Federally funded research and development contractor, its
                             level of involvement with the program, as well as issues,
                             concerns, and other significant matters observed.
                         •   The Treasury OCIO’s Director of IT Capital Planning for an
                             update on OCIO’s role in overseeing BSA IT Mod, as well as
                             issues, concerns, and other significant matters.
                         External to the program:
                          • We interviewed 16 BSA IT Mod users from 6 agencies within
                            DOJ to determine their level of satisfaction with FinCEN Query.
                            The individuals we interviewed were frequent users of FinCEN
                            Query as identified by DOJ and FinCEN documentation.
                         We reviewed FinCEN program-related information, including:
                         management reports; minutes from executive, management, and
                         technical meetings; planning documentation; program and project-
                         level documentation, including the results of a 2014 BSA E-filing
                         customer satisfaction survey; 16 FinCEN’s Program Management
                         system which contained defect and requests for change tickets;
                         FinCEN helpdesk log; FinCEN user training plans; FinCEN system
                         performance metrics; and FinCEN presentations to internal and
                         external oversight groups (e.g., Congress, Office of Management
                         and Budget, Treasury OCIO, BSA IT Modernization Executive Group
                         and Executive Steering Committee, and FinCEN management).



16
     The survey was conducted by a FinCEN contractor. FinCEN provided a contractor with 50,865 e-mail
     addresses of BSA E-Filing users. The contractor sent the survey to these users in March 2014. The
     contractor received 5,795 responses, yielding an 11 percent response rate. FinCEN and the
     contractor developed the survey questionnaire to measure overall satisfaction with the BSA E-filing
     system, including the reasons for the respondents’ satisfaction. The survey resulted in a satisfaction
     score that was above the average score for other Federal agency programs.



                         FinCEN Completed the BSA IT Modernization Program Within                  Page 12
                         Budget and Schedule (OIG-14-048)
Appendix 1
Objectives, Scope, and Methodology




To substantiate that performance testing had occurred on BSA IT
Mod, we interviewed FinCEN officials involved with BSA IT Mod
government acceptance testing and reviewed testing-related
documentation, including testing plans and status reports. We
observed that any testing defects and issues identified during
testing were recorded in FinCEN’s project management and issues
tracking system.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




FinCEN Completed the BSA IT Modernization Program Within      Page 13
Budget and Schedule (OIG-14-048)
                             Appendix 2
                             Additional Background Information on BSA IT Mod




                             The Financial Crimes Enforcement Network’s (FinCEN) efforts to
                             establish a system to manage and house Bank Secrecy Act (BSA)
                             data has been an extensive process. Planning of the BSA
                             Information Technology Modernization (BSA IT Mod) program
                             began after an earlier attempt to establish a similar program
                             failed. 17 Figure 1 provides a timeline of significant events in the
                             BSA IT Mod program.

 Figure 1. Timeline of Significant Events in FinCEN’s BSA System Modernization Efforts

                         January 2007 –
                        December 2009                                             January 2012              March 2014
      July 2006       FinCEN developed IT                May 2010           FinCEN transitioned the     FinCEN completed
        FinCEN        governance process,                Design and          collection, processing,    all planned system
      terminated      stakeholders’ needs,              development         and storage of all BSA          development
      BSA Direct       and business case                phase started             data from IRS              milestones


 2006          2007           2008       2009           2010         2011          2012          2013        2014


        November 2006                 January 2009             June 2011         November 2012           March 2013
     FinCEN established IT                Program                FinCEN              FinCEN             FinCEN adjusts
     modernization, vision             initiation and           realigned         completed roll        schedule of the
      and strategy and set            planning phase            costs and         out of FinCEN              Broker
         modernization                of BSA IT Mod              adjusts         Query to 7,500           Information
           foundation                      started              schedule              users                Exchange
                                                                                                             Project

 Source: OIG review of FinCEN data.




17
     FinCEN terminated BSA Direct Retrieval and Sharing after concluding the project had no guarantee of success.
     We reviewed that failure and found that FinCEN poorly managed the predecessor project, insufficiently defined
     functional and user requirements, misjudged project complexity, and established an unrealistic completion date.
     We also found that the Treasury OCIO did not actively oversee the project, as required by the Clinger-Cohen Act
     of 1996. Treasury Office of Inspector General (OIG), The Failed and Costly BSA Direct R&S System
     Development Effort Provides Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057; Jan. 5,
     2011).



                             FinCEN Completed the BSA IT Modernization Program Within                            Page 14
                             Budget and Schedule (OIG-14-048)
Appendix 2
Additional Background Information on BSA IT Mod




Projects Included

BSA IT Mod is made up of multiple projects with specific
components. The projects are summarized below. All projects were
completed as of March 28, 2014.

•   System of Record (SOR) provides data storage and architecture
    for BSA data for 11 years of BSA data.

•   Shared Filing Services provides for validation of BSA data with
    external data sources, such as validation of addresses to U.S.
    Postal Service data.

•   Third Party Data provides the SOR additional BSA data through
    external data sources such as the financial institution
    identification number assigned by the Federal Reserve System.

•   Bulk Data Dissemination is used for the distribution of large
    quantities of BSA data to external users.

•   Data Conversion converted 11 years of BSA data from an
    Internal Revenue Service legacy system to FinCEN’s new SOR.

•   BSA E-Filing is used by BSA filers to submit all required
    electronic filing of BSA forms to FinCEN.

•   FinCEN Query is a tool designed to improve authorized users’
    ability to access and analyze BSA data. The tool is used by
    FinCEN internal users and by registered external users and
    customers to retrieve and analyze BSA data. The tool supports
    traditional structured BSA data queries, and provides narrative
    search capabilities and options to coordinate and collaborate
    with users on queries performed.

•   Advanced Analytics provides complex search and retrieval
    functionality for FinCEN internal users to support their
    analytical, law enforcement, and regulatory activities. The tool
    provides advanced analytical capabilities such as geospatial,
    statistical analysis, social networking, semantic interchange,
    and visualization capabilities.



FinCEN Completed the BSA IT Modernization Program Within        Page 15
Budget and Schedule (OIG-14-048)
                        Appendix 2
                        Additional Background Information on BSA IT Mod




                        •   Register User Portal/Identity Management/Access Control
                            Management provides the means for common user interface and
                            authentication process through which both internal and external
                            authorized users gain access to all BSA IT Mod applications.

                        •   Infrastructure provided the design, development, procurement,
                            and implementation of the development and test environments,
                            storage area network(s), and disaster recovery capabilities
                            required to support BSA IT Mod projects.

                        •   Broker Information Exchange provides the Financial Intelligence
                            Repository (FIR), which includes 314a and 314b components.
                            The FIR replaces FinCEN’s case management systems—FinDB
                            for investigative cases, and the Customer Management System
                            and other systems for compliance, enforcement, and outreach
                            cases. The first release created FIR and incorporated SharePoint
                            (a Microsoft software application for sharing information) as a
                            mechanism to share case information for both internal and
                            external users. The 314a component allows law enforcement
                            agencies to submit requests through FinCEN to financial
                            institutions for information about financial accounts and
                            transactions of persons or businesses that may be involved in
                            terrorism or money laundering. The 314b component allows
                            financial institutions to share information with one another
                            through FinCEN to identify and report suspicious money
                            laundering or terrorist activities to the federal government. 314a
                            and 314b refer to Section 314 of the USA Patriot Act that
                            requires FinCEN to establish these functionalities. 18

                        •   Alerts provides for an automatic alert to be sent to FinCEN
                            analysts about suspicious activities reported by filers based on
                            pre-defined criteria.

                        As of June 30, 2014, all BSA IT Mod component projects are
                        completed. Table 1 displays the status of BSA IT Mod by project.




18
     Section 314 of the USA Patriot Act is established under 31 U.S.C. § 5311.



                        FinCEN Completed the BSA IT Modernization Program Within       Page 16
                        Budget and Schedule (OIG-14-048)
                    Appendix 2
                    Additional Background Information on BSA IT Mod




Table 1. BSA IT Mod Project Schedule Status at June 30, 2014
                                 Planned            Revised Planned     Actual         Project
                                 Completion         Completion          Completion     Status at
                                 Date at May        Date at June        Date at June   June
Project                          20101              20112               2014           2014
SOR
      Release 1                  9/30/2011          12/1/2011           12/15/2011     Complete
      Release 2                  6/30/2012          7/1/2012            10/16/2012     Complete
Shared Filing Services
      Release 1                  9/30/2011          12/1/2011           12/15/2011     Complete
      Release 2                  6/30/2012          7/1/2012            10/16/2012     Complete
Third Party Data
      Release 1                  9/30/2011          12/1/2011           12/15/2011     Complete
      Release 2                  6/30/2012          7/1/2012            10/16/2012     Complete
Data Conversion                  12/31/2011         1/1/2012            1/6/2012       Complete
E-Filing
      Release 1                  6/30/2011          7/1/2011            7/1/2011       Complete
      Release 2                  10/31/2011         7/1/2012            7/31/2012      Complete
FinCEN Query
      Release 1                  2/28/2012          6/1/2012            7/20/2012      Complete
      Release 2                  9/30/2012          10/1/2012           11/16/2012     Complete
Advanced Analytics
      Release 1                  10/31/2010         10/31/2010          10/31/2010     Complete
      Release 2                  4/30/2011          4/30/2011           4/30/2011      Complete
      Release 3                  7/31/2012          9/1/2012            8/1/2012       Complete
      SCIF3                      n/a                12/1/2012           11/9/2012      Complete
Register User Portal             3/31/2011          3/31/2011           3/31/2011      Complete
Identity/Access
Control Management               3/31/2011          3/31/2011           3/31/2011      Complete
Broker Information Exchange
     314A,B Release 1            5/31/2011          5/31/2011           5/31/2011      Complete
     314A,B Release 2 Phase 1    12/31/2012         4/1/2013            9/20/20134     Complete
     314A,B Release 2 Phase 25   n/a                n/a                 3/28/20144     Complete
Alerts                           9/30/2012          1/1/2013            1/4/2013       Complete
Bulk Data Dissemination
      Release 1                  9/30/2011          3/1/2012            4/17/2012      Complete
      Release 2                  6/30/2012          7/1/2012            10/16/2012     Complete




                    FinCEN Completed the BSA IT Modernization Program Within               Page 17
                    Budget and Schedule (OIG-14-048)
                       Appendix 2
                       Additional Background Information on BSA IT Mod




Table 1. BSA IT Mod Project Schedule Status at June 30, 2014
                                     Planned              Revised Planned      Actual              Project
                                     Completion           Completion           Completion          Status at
                                     Date at May          Date at June         Date at June        June
Project                              20101                20112                2014                2014
Infrastructure & Portal Security
Develop and Test                     9/30/2010            9/30/2010            9/30/2010          Complete
     Release 1                       3/31/2011            3/31/2011            3/31/2011          Complete
     Release 2                       9/30/2011            9/30/2011            9/30/2011          Complete
     Release 3                       6/30/2012            n/a6                 n/a6               n/a7
Source: OIG analysis of FinCEN documentation.
1
  The dates displayed were the initial planned completion dates when in May 2010, FinCEN began the design
  and development of projects after receiving Office of Management and Budget approval.
2
  FinCEN submitted a baseline change request to the Treasury CIO to adjust selected project milestone
  schedule dates and realign costs to keep the overall program on track. The baseline change was implemented
  in June 2011.
3
  A sensitive compartmented information facility (SCIF) has formal access controls and is used to hold
  information concerning or derived from intelligence sources, methods, or analytical processes, which was not p
  was part of the June 2011 baseline change request.
4
  A baseline change was implemented in March 2013 which adjusted the schedule completion dates.
5
  Initially, Release 2 of the project was planned as one phase.
6
  Not applicable - The work planned for Infrastructure release 3 was removed from the project and will be
  done as part of BSA IT Mod’s on-going operations and maintenance.


                        Funding of the BSA IT Mod

                        The BSA IT Mod development was funded through $119.9
                        million made available from FinCEN’s annual Congressional
                        appropriations and through supplemental funding from the
                        Treasury Forfeiture Fund administered by the Treasury Executive
                        Office for Asset Forfeiture (TEOAF). Table 2 displays funding
                        from 2009 through 2013.

                           Table 2: BSA IT Mod Development Funding Sources (in millions)
                                                                          Treasury
                           Fiscal            Congressional               Forfeiture
                           Year              Appropriation                    Fund            Total
                           2009                      $2.5                    $3.7             $6.2
                           2010                      18.5                    11.7             30.2
                           2011                      18.5                    11.5             30.0
                           2012                      23.5                      6.5            30.0
                           2013                      23.5                      0.0            23.5
                             Total                  $86.5                   $33.4           $119.9
                           Source: OIG analysis of FinCEN and TEOAF documentation.




                       FinCEN Completed the BSA IT Modernization Program Within                         Page 18
                       Budget and Schedule (OIG-14-048)
                         Appendix 2
                         Additional Background Information on BSA IT Mod




                          Contractors Engaged by FinCEN

                          In March 2008, FinCEN awarded a 5-year indefinite delivery,
                          indefinite quantity (IDIQ) contract to BearingPoint, Inc., to
                          support a full range of information technology services, custom
                          applications, maintenance support, and infrastructure support
                          necessary to implement the FinCEN IT operational objectives.
                          Numerous task orders have been issued against the contract
                          including those for the BSA IT Mod program. 19 The contract was
                          subsequently transferred to Deloitte Consulting, LLP (Deloitte). 20
                          The contract ceiling was $144 million with a minimum of
                          $1 million over the contract’s 5-year life. FinCEN also contracted
                          with MITRE Corporation (MITRE) at a cost of approximately
                          $2.1 million to provide management guidance, coordination, and
                          evaluation support for BSA IT Mod. 21 MITRE is a subject matter
                          expert on program and project management, and BSA IT Mod
                          business capabilities.

                          FinCEN is using the Treasury’s Bureau of the Fiscal Service
                          Administrative Resource Center for new contracting services
                          related to BSA IT Mod. FinCEN had previously used the
                          Acquisitions Services Directorate of the U.S. Department of the
                          Interior as the contract office to administer the contract. FinCEN
                          chose this office because of its prior experience handling large,
                          complex procurements.


19
     An IDIQ contract provides for an indefinite quantity of services during a fixed period of time. This
     type of contract is used when it cannot be predetermined, above a specified minimum, the precise
     quantities of supplies or services that the government will require during the contract period. IDIQ
     contracts are most often used for service contracts and architect-engineering services. An IDIQ
     contract is flexible, especially when not all the requirements are known at the start of a contract and
     is conducive to a modular approach, which would be one with phases or milestones.
20
     The IDIQ contract was transferred from BearingPoint, Inc. to Deloitte on October 1, 2009 after
     Deloitte purchased substantially all of the assets of Bearing Point, Inc., Public Service Division.
21
     MITRE is a not-for-profit organization chartered to work in the public interest with expertise in
     systems engineering, information technology, operational concepts, and enterprise modernization.
     Among other things, it manages federally funded research and development centers, including one
     for Internal Revenue Service (IRS) and U.S. Department of Veterans Affairs (the Center for Enterprise
     Modernization). Under Treasury’s existing contract with MITRE, Treasury and its bureaus, with
     permission of the IRS sponsor, may contract for support in the following task areas: strategic
     management, technical management, program and project management, procurement, and evaluation
     and audit to facilitate the modernization of systems and their business and technical operation.



                         FinCEN Completed the BSA IT Modernization Program Within                   Page 19
                         Budget and Schedule (OIG-14-048)
Appendix 2
Additional Background Information on BSA IT Mod




 FinCEN officials told us that Deloitte’s 5-year IDIQ contract
 ended in March 2013; however, the Acquisitions Services
 Directorate allowed a 6-month extension to September 2013
 and allowed FinCEN to extend various task orders under the
 IDIQ contract. During the audit period, Deloitte completed
 development of the Broker Information Exchange and then
 stayed on to resolve system defects until the expiration of its
 task order on April 30, 2014. As of June 30, 2014, Deloitte’s
 only remaining involvement with the BSA IT Mod program is as
 a subcontractor under NavStar, the infrastructure contractor.

 As of June 30, 2014, the current BSA IT Mod contracts in place
 are as follows:

 •   In September 2010, a contract was awarded to Universal
     Consulting Services, Inc. for application service desk support.
     It is a 6-month contract with five 1-year extensions. The
     contract awards a minimum of $500,000 and has ceiling of
     $23 million.

 •   In August 2013, a contract for BSA IT Mod network support
     was awarded to NavStar, as a 2.5-year firm-fixed-contract.
     The contract awards $2.064 million in the 6-month base year
     and has a contract ceiling of $9.3 million. Deloitte’s task
     order under its IDIQ contract for network support ended in
     September 2013.

 •   In September 2013, a contract for BSA IT Mod program
     management support was awarded to Total Systems
     Technologies Corporation, as a 3-year firm-fixed-price
     contract. The contract awards $750,761 in the base year
     and has a total contract ceiling of $2.279 million. Deloitte
     continued its support program management during the
     transition until the expiration of Deloitte’s contract at the end
     of December 2013.

 •   In November 2013, a contract for operations and
     maintenance was awarded to Northrup Grumman. It is a 6-
     month contract with three 1-year extensions with a total
     value of $22,823,940.



FinCEN Completed the BSA IT Modernization Program Within         Page 20
Budget and Schedule (OIG-14-048)
Appendix 3
Management Response




FinCEN Completed the BSA IT Modernization Program Within   Page 21
Budget and Schedule (OIG-14-048)
Appendix 4
Major Contributors to this Report




Boston Office

Mark Ossinger, Audit Manager
Kenneth O’Loughlin, Audit Manager
Richard Wood, Auditor

Washington, D.C.

Larissa Klimpel, Referencer




FinCEN Completed the BSA IT Modernization Program Within   Page 22
Budget and Schedule (OIG-14-048)
Appendix 5
Report Distribution




Department of the Treasury

   Deputy Secretary
   Under Secretary for Terrorism and Financial Intelligence
   Chief Information Officer
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Financial Crimes Enforcement Network

   Director

Office of Management and Budget

   OIG Budget Examiner

U.S. Senate

   Chairman and Ranking Member
   Committee on Appropriations
   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Appropriations

   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations




FinCEN Completed the BSA IT Modernization Program Within      Page 23
Budget and Schedule (OIG-14-048)
